Office of the Inspector General
Report of Administrative Inquiry

March 4, 2008

Preston D. Swafford, LP 3K-C

WIDOWS CREEK FOSSIL PLANT (WCF)
ENVIRONMENTAL MATTERS – AIR
OIG FILE NO. 23C-8



We have completed our investigation of an allegation that there were leaks in the flue
gas ductwork (FGD) at WCF for several years, in violation of environmental
requirements, and TVA failed to report those leaks. We conducted this investigation
jointly with the Criminal Investigations Division, Environmental Protection Agency
(EPA).

We are issuing this report as a supplement to our December 17, 2007, audit report,
Review of Reportable Environmental Events at TVA Facilities (No. 2007-019F). That
report found two significant duct leaks, one at Cumberland Fossil Plant (CUF) and one
at the Paradise Fossil Plant (PAF), were not reported externally. As noted in that
report, the Air Media Specialists and the Manager, Fossil Power Group (FPG)
Environmental Affairs, believed the leaks did not have to be reported. That report
identified a lack of transparent environmental reporting as an issue and recommended
TVA’s Environmental Executive work with other TVA executives to promote a culture of
transparent reporting throughout TVA organizations. Management agreed with the
recommendations in that report.

FINDINGS

This investigation addressed ductwork leaks at WCF and further supports those audit
findings. In summary, we found the following.

    •   TVA advised it was in the forefront with new technology when it installed a
        Selective Catalytic Reduction (SCR) system on WCF Unit 7 in 2003 to reduce
        NOx emissions. After installation of that system, however, deterioration of the
        FGD accelerated. There was a learning curve involved, and TVA did not
        expect the resulting amount of corrosion.

    •   TVA contracted with the Worley Parsons Group (WPG) to inspect the FGD
        during 2002 and 2004. The latter inspection report, dated May 27, 2004,
        reflected significantly increased deterioration.
Preston D. Swafford
Page 2
March 4, 2008



     •    Comments by WCF employees we interviewed showed the leaks became
          progressively worse and were extensive.

     •    Apparently based on the 2004 WPG inspection, TVA decided to replace large
          portions of the FGD during the then-upcoming planned October 2005 outage.
          Those areas that could not be replaced during that outage were patched.

     •    Management advised replacing the ductwork was a major operation. The initial
          scoping began in May 2004, the request for proposals was issued in March
          2005, and the ductwork was delivered in October 2005, just before the outage
          began. Major parts of the ductwork were replaced during the outage. The
          following timeline illustrates the scope of this project.

                    May 13, 2004                                      Initial scoping meeting for capital
                                                                      project
                    June 25, 2004                                     Conceptual cost estimate complete
                    July 1 - Sept. 30, 2004                           GUBMK prepares preliminary cost
                                                                      estimate and constructability
                                                                      review
                    October 1, 2004                                   Phase 1 study approved
                    November 4, 2004                                  Kickoff meeting for Phase 1 study
                    March 18, 2005                                    Request for Proposals issued
                    March 25, 2005                                    Pre-bid meeting
                    June 14, 2005                                     Contract award
                    October 14, 2005                                  Ductwork delivery
                    October 15, 2005                                  Outage start

     •    No one we interviewed recalled any discussions of the leaks as possible air
          permit violations; rogue leaks from the FGD seemed insignificant compared to
          the stack emissions.1 The leaks were addressed from a safety standpoint and
          not as a permit issue.

     •    TVA subsequently developed a Duct Leak Program containing guidance on
          inspection frequency, recordkeeping and reporting, and priority of repairs.

     •    The Alabama Department of Environmental Management (ADEM) and EPA
          each issued TVA a Notice of Violation (NOV) related to these leaks.




1
 TVA, after noting there was no established methodology for estimating emissions from leaks when ductwork is
deteriorating while also being temporarily repaired, conservatively estimated a total of 931 tons of SO2 and 13 tons of
ozone season NOx were emitted between April 27, 2004, and October 14, 2005. Comparatively, all the WCF units
during 2006 issued 33.5 thousand tons of SO2 and 17.1836 thousand tons of NOX.
Preston D. Swafford
Page 3
March 4, 2008



   •   By letter dated January 13, 2006, TVA disagreed with ADEM’s proposed NOV.
       In that response, TVA stated that prior to the inspection and NOV it had
       undertaken the actions necessary and appropriate to continue to maintain the
       ductwork associated with the scrubber consistent with the permit. TVA stated it
       further disagreed with the alleged violation because WCF operated and
       maintained air pollution equipment consistent with utility industry practices.
       TVA explained that the efforts to properly maintain the ductwork were
       demonstrated by WCF’s outage plans, and the work on the Unit 7 flue gas
       ductwork and scrubber followed a planning and procurement timeline
       customary within the industry.

       FPG noted that TVA’s January 13, 2006, position supported the understanding
       by WCF personnel that no notification of the leaks was warranted.

   •   On March 14, 2006, ADEM conducted an announced inspection to observe
       work conducted to reduce the duct leaks. The unit was not operating during the
       inspection. The memorandum documenting the inspection noted that
       significant ductwork had been replaced in the areas where the most visible
       leaks were observed during the 2005 inspection that led to the NOV. The
       inspectors noted that leaks should be repaired as soon as practicable and leaks
       should be included in the work order system.

   •   On January 10, 2008, ADEM issued a proposed consent order under which
       TVA agreed to pay a $100,000 civil penalty. Although ADEM noted it was not
       aware of any irreparable harm to the environment resulting from this violation, it
       stated that TVA did not exhibit a standard of care commensurate with
       applicable regulatory requirements, specifically operating and maintaining
       control equipment in a manner so as to minimize emissions. ADEM further
       noted there was a significant delay between discovering the leaks and repairing
       them during a scheduled outage. The EPA NOV is still pending.

We also reviewed Environmental Management System (EMS) audit reports for WCF
and found the following.

   •   EMS audits conducted December 8-12, 2003, and March 28-31, 2005, did not
       mention the duct leaks. The TVA Office of Environment and Research (OE&R)
       noted that the auditors did not observe any air duct leaks in 2003 and by 2005
       WCF had self-identified the leaks and had a plan to correct the problem. OE&R
       further noted that the auditors were aware of leaking duct issues in TVA and
       they identified issues related to duct work in the PAF audit in 2002 and at CUF
       in a 2006 unannounced audit. (FPG added that no audit finding was included in
       2005 because the problem had been self-identified and a need to make a
       regulatory notification had not been identified.)
Preston D. Swafford
Page 4
March 4, 2008



   •   A July 2007 EMS audit report included the following observations.

       ¾ No obvious duct leaks were identified during the audit. Missing lagging
         which could deteriorate and subsequently result in corrosion inside the duct
         work was noted, but plans are being developed to correct these areas.

       ¾ A formal inspection process is being implemented for units 7 and 8 scrubber
         duct work. Inspections are to occur every two weeks by the Systems
         Engineer and be documented with a check sheet; any identified leaks are to
         be reported to the Shift Operations Supervisor for temporary repairs and
         daily inspections on the temporary repairs will be performed until permanent
         repairs are completed.

OBSERVATIONS

Based on our investigation, we had the following observations.

   •   Follow-up inspections indicate the duct work problems have been addressed.

   •   While management made efforts to repair the leaks, the emphasis was on
       efforts to contain the leaks while keeping the plant operating until the next major
       outage in October 2005.

   •   The WPG report was dated May 27, 2004, but the ductwork was not ordered
       until June 2005 and delivered in October 2005, when the outage began.

   •   In spite of the continuous nature and extent of the leaks, it appears that little, if
       any, consideration was given to reporting the leaks to ADEM. Rather, the leaks
       were addressed as a safety or maintenance issue and not a permit issue. We
       also found no evidence that ethics and compliance issues were considered,
       presumably because of the emphasis on business operations.

   •   We also noted that under the Winning Performance scorecard, management
       had a financial incentive to keep the plant operating.

The EPA permit program, as delegated to the states, requires self-reporting of permit
deviations. As with the CUF and PAF leaks, WCF personnel indicated they never
thought of reporting the matter to ADEM because they did not think the leaks
constituted a permit deviation. In our opinion, in addition to the regulatory requirement,
Preston D. Swafford
Page 5
March 4, 2008



TVA has a responsibility from an ethics and compliance standpoint to report issues that
may be of concern. We believe TVA to show leadership in this area should err on the
side of reporting such issues in order to avoid the appearance of ignoring or hiding any
such matters. TVA could then work with the regulatory agencies in deciding what
course of repair would be appropriate. We recognize in this regard that TVA operating
organizations may wish to consult with the TVA Office of the General Counsel when
they have concerns related to how to interpret regulations and whether guidance from
regulatory agencies should be sought.

REMARKS

This office in concert with EPA Criminal Investigations Division presented this matter to
the United States Attorney’s Office for the Northern District of Alabama, who declined
prosecution.

We obtained informal comments from FPG and OE&R. We incorporated those
comments in the report as appropriate.

RECOMMENDATION

Management previously concurred with the recommendation in our audit report that
TVA’s Environmental Executive work with other TVA executives to promote a culture of
transparent reporting throughout TVA organizations. Based on our investigation at
WCF, we further recommend the Executive Vice President, FPG, consult with the
Ethics and Compliance Officer regarding methods to incorporate ethics and
compliance considerations into daily operations at the fossil plants.

We would appreciate being informed within 30 days of your determination of what
action is appropriate on the basis of our report. In addition, if you decide to take
documented action on the basis of this report, we would appreciate your sending a
copy of the relevant information to this office for our file.

This report has been designated “TVA Restricted” in accordance with TVA Business
Practice 29, Information Security. Accordingly, it should not be disclosed further
without the prior approval of the Inspector General or his designee. In addition, no
redacted version of this report should be distributed without notification to the Inspector
General of the redactions that have been made.
Preston D. Swafford
Page 6
March 4, 2008



Our investigation of this matter is closed.




John E. Brennan
Assistant Inspector General
  (Investigations)
ET 4C-K

JEB:RPL:MSW
cc: William G. Cronin, WCB 1A-STA
    Maureen H. Dunn, WT 6A-K
    Bridgette K. Ellis, WT 11B-K
    Peyton T. Hairston, Jr., WT 7B-K
    John E. Long, Jr., WT 7B-K
    John Joseph McCormick, Jr., LP 3K-C
    OIG File No. 23C-8
